                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 113030019                                                                      Page 1 of 1



         This case was opened on a company 1 stemming from a proactive review2 looking at SBIR/STTR
         companies that may not have adequate facilities to support their research. The investigation into
         the Phase I award3 to this company revealed potential issues. Interviews and a review of
         company and financial documentation found no evidence of fraud, waste, or abuse.

         Accordingly, this case is closed.




         I
         2




NSF OIG Form 2 (11/02)
